<html>
<title> - A REVIEW OF THE P5: THE U.S. VISION FOR PARTICLE PHYSICS AFTER DISCOVERY OF THE HIGGS BOSON</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                A REVIEW OF THE P5: THE U.S. VISION FOR
                   PARTICLE PHYSICS AFTER DISCOVERY 
                           OF THE HIGGS BOSON

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2014

                               __________

                           Serial No. 113-78

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
                                      ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-407 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   
   
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOSEPH KENNEDY III, Massachusetts
MICHAEL T. McCAUL, Texas             MARC VEASEY, Texas
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas















                            C O N T E N T S

                             June 10, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Eric Swalwell, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     8

                               Witnesses:

Dr. Steve Ritz, P5 Chair and Professor, University of California, 
  Santa Cruz
    Oral Statement...............................................    10
    Written Statement............................................    13

Dr. Persis Drell, Director Emerita, SLAC National Laboratory
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Nigel Lockyer, Director, Fermi National Accelerator 
  Laboratory
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Natalie Roe, Director, Physics Division, Lawrence Berkley 
  National Laboratory
    Oral Statement...............................................    36
    Written Statement............................................    38

Discussion.......................................................    44

             Appendix I: Additional Material for the Record

Submitted statement for the record by Representative Eddie 
  Bernice Johnson, Ranking Member, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    58

Article submitted for the record by Randy Hultgren, Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    59

 
                A REVIEW OF THE P5: THE U.S. VISION FOR
                    PARTICLE PHYSICS AFTER DISCOVERY
                           OF THE HIGGS BOSON

                              ----------                              


                         TUESDAY, JUNE 10, 2014

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Lummis. Good morning. The Subcommittee on Energy 
will come to order.
    And we welcome today's hearing titled ``A Review of the P5: 
The U.S. Vision for Particle Physics After Discovery of the 
Higgs Boson.'' I am going to need an explanation of what that 
is.
    In front of you are packets containing the written 
testimonies, biographies, and truth-in-testimony disclosures 
for today's witness panel . And I now recognize myself for five 
minutes for an opening statement.
    I would like to welcome everyone to today's hearing on the 
status of particle physics research in the United States. 
Today, the Energy Subcommittee will discuss the strategic plan 
for U.S. particle physics in the global context offered by the 
Particle Physics Project Prioritization Panel, also known as 
the P5.
    Researchers in particle physics seek to unveil the 
fundamental components of existence in an effort to better 
understand the interrelationship between space, matter, and 
time. The field has been highly successful, recently yielding 
discoveries of the heaviest elementary particle, the top quark, 
the tiny masses of neutrinos, the accelerated expansion of the 
universe, and the Higgs boson.
    The P5 plan reflects approximately one year of 
deliberations to reach consensus throughout the particle 
physics community regarding the best opportunities for the 
United States to maintain global significance in this 
scientific discipline while considering three potential budget 
scenarios.
    While the U.S. remains in a state of fiscal uncertainty, 
reducing overall Federal spending in order to arrive at a 
balanced budget should be a top priority. Yet during this 
process, we cannot overlook the fact that the Federal 
Government plays a critical role when it comes to the Nation's 
long-term competitiveness in the physical sciences. As noted in 
the P5 report, ``the countries that lead these activities 
attract the top minds and talent from around the world, inspire 
the next generation of scientists and technologists, and host 
international teams dedicated to a common purpose.'' In 
particle physics, the U.S. is already slipping and stands to 
lose its position of global significance if we do not act 
boldly.
    Basic research, such as that which is funded through the 
Office of Science's High Energy Physics, also known as HEP, 
pronounced HEP, is proper use of taxpayer funds. As the 
authorizing Committee of the House, we are responsible to 
ensure that the HEP program uses its limited funds prudently. I 
say this to underscore the importance of the P5, which had to 
make difficult choices but found a way to achieve consensus in 
this very competitive area of cutting-edge science and provide 
the U.S. particle physics program with a road map for success.
    To the witnesses, I convey my admiration for your hard work 
for those who took part in the P5 directly and those who carry 
out this unique research that we will learn more about today. I 
want to thank the witnesses for participating in today's 
hearing and look forward to their testimony.
    A high school colleague of mine by the name of Greg Snow 
became part of the team that worked on particle physics. I see 
you nodding. And he and I were very dear friends, high school 
friends, and so I have followed his career and note his 
excitement about what you have done. And so I have lived 
vicariously through him following your work. And his excitement 
is contagious I might say.
    So welcome. We are delighted to have you here.
    [The prepared statement of Mrs. Lummis follows:]

       Prepared Statement of Subcommittee Chairman Cynthia Lummis

    I would like to welcome everyone to today's hearing on the status 
of particle physics research in the United States. Today, the Energy 
Subcommittee will discuss a strategic plan for U.S. particle physics in 
the global context offered by the Particle Physics Project 
Prioritization Panel, also known as the ``P5.''
    Researchers in particle physics seek to unveil the fundamental 
components of existence in an effort to better understand the 
interrelationship between space, matter, and time. The field has been 
highly successful--recently yielding discoveries of the heaviest 
elementary particle (the top quark), the tiny masses of neutrinos, the 
accelerated expansion of the Universe, and the Higgs boson. The P5 plan 
reflects approximately one year of deliberation to reach consensus 
throughout the particle physics community regarding the best 
opportunities for the United States to maintain global significance in 
this scientific discipline while considering three potential budget 
scenarios.
    While the U.S. remains in a state of fiscal uncertainty, reducing 
overall federal spending in order to arrive at a balanced budget should 
be a top priority. Yet during this process, we cannot overlook the fact 
that the federal government plays a critical role when it comes to the 
nation's long-term competitiveness in the physical sciences. As noted 
in the P5 report, ``the countries that lead these activities attract 
the top minds and talent from around the world, inspire the next 
generation of scientists and technologists, and host international 
teams dedicated to a common purpose.'' In particle physics, the U.S. is 
already slipping and stands to lose its position of global significance 
if we do not act boldly.
    Basic research, such as that which is funded through the Office of 
Science's High Energy Physics (HEP) program, is a proper use of 
taxpayer funds. As the authorizing Committee of the House, we are 
responsible to ensure that the HEP program uses its limited funds 
prudently. I say this to underscore the importance of the P5, which had 
to make difficult choices, but found a way to achieve consensus in this 
very competitive area of cutting-edge science and provide the U.S. 
particle physics program with a road map for success.
    To the witnesses, I convey my admiration for your hard work--for 
those who took part in the P5 directly and those who carry out this 
unique research that we will learn more about today. I want to thank 
the witnesses for participating in today's hearing and look forward to 
their testimony.

    Chairwoman Lummis. And now I recognize the Ranking Member, 
the gentlemen from California, Mr. Swalwell, for an opening 
statement.
    Mr. Swalwell. Thank you, Chairman Lummis, for holding this 
hearing.
    I also want to thank this excellent panel of witnesses for 
their testimony and being here this morning. I am especially 
pleased to see northern California so well represented at the 
panel, which clearly means that this is going to be a 
particularly informative and productive Congressional hearing 
today. And that is not of course taking anything away from Dr. 
Lockyer.
    We are here to discuss the recently released P5 report, 
which lays out a vision for particle physics in the United 
States over the next decade. The timing of this report could 
not be any better as we are extremely excited about the history 
of this field.
    With the major advances that have been made over just the 
past couple of years such as the Nobel Prize-winning discovery 
of the Higgs boson, as well as the potential detection of 
gravitational waves first predicted by Einstein 100 years ago, 
we are equipped with knowledge and advancing technologies that 
will allow humans to further engage our innate curiosity about 
everything from fundamental building blocks for the world as 
well as for the origin and the evolution of the universe.
    However, as amazing as these developments may be and as 
much as we would like to continue to push the frontiers of 
science, we are also forced to keep in mind our currently 
fiscally constrained environment. This is the reason for the 
Department of Energy and the National Science Foundation 
charging the P5 panel with doing the hard work of prioritizing 
particle physics projects under several difficult budget 
scenarios, the lowest one being particularly restrictive and in 
my view unacceptable given the critical missed opportunities 
that would be required to meet it.
    I also believe that the end result is a very strong 
product, and I want to thank Dr. Ritz for his leadership on the 
P5, as well as the entire P5 team for their efforts. Tough 
decisions were obviously being made, especially considering the 
long-term nature of building and operating particle physics 
facilities.
    The Higgs boson I mentioned earlier was found using the 
Large Hadron Collider, which took ten years to build and will 
continue to operate well into the next decade. And in fact the 
Higgs boson existence was first projected and postulated 50 
years ago. This gives us an idea of how far out the P5 had to 
look when working through the prioritization process, and what 
they produced provides policymakers with sound guidance, which 
we should in turn use to provide the particle physics community 
with the support and stability it needs to conduct complex 
long-term research that will help us understand far more about 
the nature of our universe. The United States has a long 
history of leadership in advanced physics, and I think that we 
have been presented with a report that will ensure that this 
continues to be the case.
    Madam Chair, before I yield back, I would like to quickly 
congratulate Dr. Drell on being named Dean of Engineering at 
Stanford University. She will be the first woman to serve in 
that role, and that is noteworthy and worthy of our 
congratulations. This is even more evidence that we have truly 
assembled some of the top minds in the field here today.
    Thank you again for holding this hearing and I am looking 
forward to learning more from our panel. And with that, I yield 
back.
    [The prepared statement of Mr. Swalwell follows:]

    Prepared Statement of Subcommittee Minority Ranking Member Eric 
                                Swalwell

    Thank you Chairman Lummis for holding this hearing, and I also want 
to thank this excellent panel of witnesses for their testimony and for 
being here today. I'm especially pleased to see northern California so 
well represented, which clearly means that this is going to be a 
particularly informative and productive hearing. That of course is not 
meant to take anything away from you, Dr. Lockyer.
    We're here today to discuss the recently released P5 report, which 
lays out a vision for particle physics in the United States over the 
next decade. The timing of this report couldn't be any better, as we 
are at an extremely exciting time in the history of the field. With the 
major advances that have been made over just the past couple of years, 
such as the Nobel Prizewinning discovery of the Higgs boson 
[pronounced: BOZE-on] as well as the potential detection of 
gravitational waves first predicted by Einstein almost a hundred years 
ago, we are equipped with new knowledge and advancing technologies that 
will allow humans to further engage our innate curiosity about 
everything from the fundamental building blocks of our world to the 
origin and evolution of the universe.
    However, as amazing as these developments may be and as much as we 
would like to continue to push the frontiers of science, we are also 
forced to keep in mind our current fiscally constrained environment. 
This is the reason the Department of Energy and the National Science 
Foundation charged the P5 Panel with doing the hard work of 
prioritizing particle physics projects under several difficult budget 
scenarios--the lowest one being particularly restrictive and, in my 
view, unacceptable given the critical missed opportunities that would 
be required to meet it. I believe the end result is a very strong 
product, and I want to thank Dr. Ritz for his leadership of the P5, as 
well as the entire P5 team for their efforts.
    Tough decisions were obviously made, especially considering the 
long-term nature of building and operating particle physics facilities. 
The Higgs boson I mentioned earlier was found using the Large Hadron 
Collider, which took ten years to build and will continue operations 
well into the next decade. And, in fact, the Higgs boson's existence 
was first postulated 50 years ago.
    This gives us an idea of how far out the P5 had to look when 
working through the prioritization process. And what they produced 
provides policymakers with sound guidance, which we should in turn use 
to provide the particle physics community with the support and the 
stability it needs to conduct complex, long-term research that will 
help us understand far more about the nature of our universe. The 
United States has a long history of leadership in advanced physics, and 
I think we have been presented with a report that will help ensure that 
that continues to be the case.
    Madam Chair, before I yield back, I would like to quickly 
congratulate Dr. Drell on recently being named Dean of Engineering at 
Stanford University. She will be the first woman to serve in that role. 
This is even more evidence that we have truly assembled some of the top 
minds in the field here today.
    Thank you again for holding this hearing, and I am looking forward 
to learning more from our panel. With that, I yield back.

    Chairwoman Lummis. I thank the Ranking Member. If there are 
any other Members who wish to submit additional opening 
statements, your statements will be added to the record.
    Chairwoman Lummis. At this time I would like to introduce 
our witnesses.
    Our first witness today is Dr. Steve Ritz, P5 Chair and 
Professor at the University of California at Santa Cruz. Dr. 
Ritz is also the director of the Santa Cruz Institute for 
Particle Physics at the University of California. Previously, 
Dr. Ritz was a Professor of Physics at the University of 
Maryland and Astrophysicist at NASA's Goddard Space Flight 
Center as well. Dr. Ritz received his Ph.D. in physics from the 
University of Wisconsin. We welcome you and warmly appreciate 
your attendance today.
    Our second witness is Dr. Persis--that is a beautiful first 
name--Dr. Persis Drell, Director Emerita of the SLAC National 
Accelerator Laboratory. Dr. Drell served as Director of SLAC 
from 2007 to 2012. Dr. Drell is also a Professor of Physics at 
Stanford. Previously, Dr. Drell was the Associate Director for 
the research division at SLAC. She has also served as Deputy 
Project Manager for the Fermi Gamma-ray Space Telescope. Dr. 
Drell received her Ph.D. in atomic physics from the University 
of California.
    I understand you also were one of the conceivers of the 
notion of the P5, which I believe has worked extremely well and 
we thank you for your foresight in organizing these issues.
    Next, I would like to introduce--oh, good, Mr. Hultgren is 
here. I am so pleased because he had asked to introduce today's 
third witness. So at this time I would like to yield to the 
gentleman from Illinois, Mr. Hultgren, to introduce Dr. Roe. 
No, excuse me, Dr. Lockyer.
    Mr. Hultgren. Yes.
    Chairwoman Lummis. Perfect.
    Mr. Hultgren. Thank you. I apologize for being a little bit 
late. I had to run by a markup in Financial Services.
    But great to be with you today. Thank you all so much for 
being here. It really is my honor, Madam Chair, to introduce 
someone who is doing a great job and has become a very good 
friend. Our third witness today is Dr. Nigel Lockyer, Director 
of Fermi National Accelerator Laboratory. Previously, Dr. 
Lockyer served as the Director of Canada's National Laboratory 
for Particle and Nuclear Physics, TRIUMF. He was also Professor 
of Physics and Astronomy at the University of British Columbia. 
Prior to his work at the Canadian Physics Laboratory, Dr. 
Lockyer served as a Professor of Physics at the University of 
Pennsylvania. Dr. Lockyer earned his Ph.D. in physics from the 
Ohio State University.
    So glad you are here. Thank you, Dr. Lockyer, and thank you 
for your great work at Fermi Lab.
    I yield back. Thanks, Chairwoman.
    Chairwoman Lummis. Thank you, Mr. Hultgren.
    Our final witness today is Dr. Natalie Roe, Director of the 
Physics Division at Lawrence Berkley National Laboratory. Dr. 
Roe joined Lawrence Berkley in 1989 as a kindergartener 
apparently. No, it says as a postdoctoral fellow. I suppose 
those things can happen simultaneously, but it is impressive, 
Dr. Roe, very impressive. She has a distinguished record of 
research in service to the Physics Division, the laboratory, 
and to the national high energy physics community. Dr. Roe has 
been an active participant in developing the strategic vision 
of the Physics Division and has been a member of its Advisory 
Committee since 2006. Dr. Roe received her Ph.D. in physics 
from Stanford University.
    As our witnesses should know, spoken testimony is limited 
to five minutes, after which Members of the Committee will have 
five minutes each to ask questions. Again, panel, we are 
delighted you are here.
    I now recognize Dr. Ritz for five minutes to present his 
testimony.

                  TESTIMONY OF DR. STEVE RITZ,

                    P5 CHAIR AND PROFESSOR,

              UNIVERSITY OF CALIFORNIA, SANTA CRUZ

    Dr. Ritz. Very good, thank you. Can you hear me? Yes.
    Chairman Lummis, Ranking Member Swalwell, Members of the 
Subcommittee, thank you for inviting me to this important 
hearing.
    Particle physicists have come together to make a 
recommended plan that is driven by the science and that meets 
tight fiscal constraints. The plan enables leadership by the 
United States, resolves key issues for the field, and envisions 
a continuous flow of exciting and important results while 
making essential investments in the future. HEPAP, the FACA 
panel advising the DOE and NSF, considered the report carefully 
and voted unanimously to approve it on May 22, 2014.
    As you know, particle physics explores the fundamental 
constituents of matter and energy, revealing profound 
connections underlying everything we see. The field is highly 
successful. There have been major discoveries recently that 
point the way forward, and since 2008, three Nobel prizes 
related to particle physics were awarded. I would just like to 
add here that one of the recent Nobel laureates, Saul 
Perlmutter, was a member of our panel, and we very much 
appreciated that.
    Research and particle physics inspires young people to 
engage with science. Particle physics is global, addressing the 
most compelling questions of the field is beyond the finances 
and technical expertise of any one nation or region. The United 
States and major players in other regions can together address 
the full breadth of the field's most urgent scientific 
questions if each hosts a unique world-class facility at home 
and partners in high-priority facilities hosted elsewhere. 
Strong foundations of international cooperation exist with the 
Large Hadron Collider, LHC, at CERN, serving as an example of a 
successful large international science project.
    Tough choices were required. Our panel understood that an 
important part of our job was to recommend ways for the United 
States to invest purposefully in areas that have the biggest 
impacts and that make the most efficient use of limited 
resources. The charge calls for planning under two specific 
budget scenarios with ten-year profiles reflecting current 
fiscal realities, as well as a third unconstrained scenario.
    We started with the science. A yearlong community-wide 
study called ``Snowmass'' preceded the formation of P5, and 
based on this comprehensive work by the broad community, we 
identified five compelling lines of inquiry that show great 
promise for discovery over the next 10 to 20 years. These are 
the science drivers of the field, and they are: Use the Higgs 
boson as a new tool for discovery; pursue the physics 
associated with neutrino mass; identify the new physics of dark 
matter; understand cosmic acceleration, dark energy, 
inflation--and I assure you this inflation does not involve the 
consumer price index, as if you were wondering--and explore the 
unknown, new particles, interactions, and physical principles. 
I look forward to discussing these with you in more detail and 
why we are really so excited about them.
    The prioritization is in the selection and timing of the 
specific projects to address these science drivers. Using an 
explicit set of selection criteria that we developed, we 
recommend some projects not be implemented and some existing 
efforts be reduced or terminated. Having made these choices, 
the field could move forward immediately with a prioritized and 
time-ordered recommended program, which is summarized in the 
report in Table 1 and includes the following features: The 
enormous physics potential of the LHC, which will be entering a 
new era with its planned upgrades, will be fully exploited. 
U.S. scientists continue to play very visible leadership roles, 
and the provided hardware would be designed and built here in 
the United States. The United States would host the world-
leading neutrino program with an optimized set of short- and 
long-baseline neutrino oscillation experiments. You will hear 
more about that. The long-term focus of the program would be 
the Long Baseline Neutrino Facility, LBNF. The Proton 
Improvement Plan, PIP-II, project at Fermilab would provide the 
world's most powerful neutrino beam.
    Large projects are ordered by peak construction time based 
on budget constraints, physics needs, and readiness criteria. 
This was an important thing the panel did. Several small- and 
medium-sized projects in areas especially promising for near-
term discoveries and in which the United States is in a strong 
leadership position would move forward under all budget 
scenarios. Another important project of this type, the Dark 
Energy Spectroscopic Instrument, DESI, would also move forward 
except in the lowest budget scenario.
    Specific investments would be made in essential accelerator 
R&D and instrumentation R&D. The interest expressed in Japan in 
hosting the International Linear Collider is an exciting 
development. Recommendation--recommended participation by the 
United States in project construction depends on a number of 
factors, some of which are beyond the scope of P5.
    Six significant changes in direction are recommended. Of 
these I highlight here the first one: Increase investment in 
construction of new facilities. In constrained budget scenarios 
this will necessarily entail some judicious reductions in the 
research program. This represents a large commitment to 
building new experiments, which we see as essential. We titled 
our report ``Building for Discovery.'' As detailed in the 
report and as I hope we can discuss today, the bang for the 
buck of relatively small incremental investments in particle 
physics would be really big.
    The lowest budget scenario is precarious. It approaches the 
point beyond which hosting a large project in the United States 
would not be possible while maintaining the other elements 
necessary for mission success. Without the capability to host a 
large project, the United States would lose its position as a 
global leader in this field and international relationships 
that have been so productive would be fundamentally altered.
    The broader impacts of particle physics research are many. 
These are summarized in Section 4 of the report. Topics include 
material science, medical imaging and therapy, computing, 
neuroscience, and bringing to life the earliest audio 
recordings.
    There was continuous effort on many fronts throughout the 
P5 process to maintain direct community involvement. I see my 
time has run short so I would be happy to discuss that further 
with you in questions. It was a very important process and the 
way in which we work I think really resulted in the best 
possible plan for the field.
    In conclusion, the P5 report offers important opportunities 
for U.S. investment in science, prioritized under tightly 
constrained budget scenarios in the charge, wondrous projects 
that address profound questions inspire and invigorate far 
beyond their specific fields and they lay the foundations for 
next-century technologies we can only begin to imagine. 
Historic opportunities await us enabled by decades of hard work 
and support. The U.S. particle physics community is ready to 
move forward.
    Thank you, thank you for your support of U.S. science and 
for the opportunity to be here today. I look forward to hearing 
your thoughts and answering your questions.
    [The prepared statement of Dr. Ritz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. Thank you, Dr. Ritz.
    I now recognize Dr. Drell to present her testimony.

                 TESTIMONY OF DR. PERSIS DRELL,

                       DIRECTOR EMERITA,

                    SLAC NATIONAL LABORATORY

    Dr. Drell. Chairman Lummis, Ranking Member Swalwell, 
Members and staff of the Subcommittee, I too am very pleased to 
be here today to provide my perspective on the future of 
particle physics in light of the new P5 report.
    It is a particular pleasure for me to participate in these 
hearings. Twelve years ago I was part of the HEPAP subpanel 
that recommended the creation of P5. We believed that such a 
prioritization process would be essential in ensuring that we 
judiciously use the available resources in our field--both 
human and financial--to pursue a balanced, diverse, and 
exciting program. It is not possible to pursue all of the 
scientific opportunities we see before us. We must choose 
wisely.
    In my opinion, this most recent P5 report does an 
outstanding job of setting the path forward for U.S. particle 
physics. Fully recognizing that resources are constrained, the 
report sets forth a staged plan focusing on the most compelling 
science, building on U.S. strengths across the field, ensuring 
that the United States retains a leadership role in this 
important area of research.
    Before discussing the report, it helps to remember why 
having a healthy particle physics program is important for our 
Nation. I will start with the science. Particle physics asks 
very basic and fundamental questions about the world we live 
in. It is incumbent on us to pursue the answers to those 
questions, as has every great society that has preceded us for 
millennia.
    In addition, the fundamental nature of these questions 
draws interest to science generally. Just look at the 
excitement over the discovery of the Higgs. And while many 
factors go into an individual's decision to pursue a career in 
science, the idea of big fundamental questions out there just 
waiting to be answered is certainly one enticement.
    Finally, particle physics is an essential part of the 
fabric of the physical sciences in the United State. It 
contributes broadly to other disciplines and benefits 
enormously from research in other fields.
    A vivid illustration of the interplay between different 
scientific fields comes from SLAC National Accelerator Lab, 
where I was the director from 2007 to 2012. SLAC was born as a 
particle physics laboratory. We turned off our last accelerator 
for particle physics in 2008. In 2009 we turned on the world's 
first x-ray free-electron laser, the Linac Coherent Light 
Source. The LCLS is a tool for chemistry, for biology, for 
materials science, for condensed matter physics. It is not a 
tool for particle physics. However, its rapid early success 
relied on years of research and development in particle physics 
aimed at making precision-controlled beams of electrons for 
future linear colliders.
    The challenge we have been facing for some time now is how 
to craft a healthy particle physics program in the United 
States with constrained resources and an increasingly 
international environment. The P5 subpanel has done an 
outstanding job of charting our course. They started, as Dr. 
Ritz said, with the science. To be successful we need to focus 
on and prioritize the opportunities that give us the most 
transformational scientific advances and attract the best 
talent.
    Following a yearlong process of engaging the community, P5 
articulated five intertwined science drivers for the field and 
then developed criteria for their prioritization process and 
evaluated the projects against those criteria to craft the 
program for the future. The P5 process engaged the entire 
community, both laboratories and the university community. The 
transparency and inclusivity of the process were phenomenal and 
exceptionally well done. The community is deeply in debt to the 
leadership shown by Dr. Ritz. The plan P5 crafted reflects the 
voices, priorities, and thoughts of many in our community. It 
is the reason the community can stand behind this plan.
    In ending, I would like to note that the field of particle 
physics in the United States and in the world is changing 
dramatically. We used to define ourselves solely in terms of 
our primary accelerator tools, but to quote the former White 
House Science Advisor Jack Marburger, ``Opportunities have 
emerged for discovery about the fundamental nature of the 
universe that we never expected and technology places those 
discoveries within our reach.''
    Going forward, we must have a program that allows us to 
focus efforts across a broad variety of tools to realize the 
new scientific opportunities. That includes observatories in 
space, telescopes on mountains, sensitive detectors in deep 
caves under the earth, in addition to our traditional 
accelerator tools.
    The plan outlined by P5 and supported by the particle 
physics community is a realistic, executable roadmap for a new 
era and it will enable a future of discovery that is every bit 
as exciting as our past. It was hard but the results are worth 
the effort. This roadmap will allow the field to move forward 
and to deliver success.
    Thank you for the opportunity to share my views with you 
today.
    [The prepared statement of Dr. Drell follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairwoman Lummis. Thank you, Dr. Drell.
    And now the Chair recognizes Dr. Lockyer for your opening 
statement.

           TESTIMONY OF DR. NIGEL LOCKYER, DIRECTOR,

             FERMI NATIONAL ACCELERATOR LABORATORY

    Dr. Lockyer. Thank you. Good morning, Chair Lummis, Ranking 
Member Swalwell, Congressman Hultgren, and other Members.
    The P5 report lays out a bright future for particle physics 
community and the Fermilab strongly supports the 
recommendations of the P5 report and it has embraced its role 
in implementing the strategic vision for the field. If 
implemented, the report should maintain and reinvigorate U.S. 
leadership in particle physics.
    For the benefit of the Ranking Member, Fermilab is located 
42 miles west of Chicago in Batavia, Illinois. It is a 68,000--
I wish it was--a 6,800 acre laboratory, 1,700 employees, 2,100 
users. It has the largest accelerator complex in the United 
States and delivers the most intense beams of neutrinos not 
only at Fermilab but also to Minnesota. So the beams themselves 
travel through the earth, which is one of the more interesting 
properties of neutrinos. They travel through just about 
anything.
    Fermilab is largely open to the public and is the home of a 
small bison herd, better known as buffalo, and Fermilab is 
managed by Fermilab Research Alliance, a partnership between 
the University of Chicago and the URA, an association of 88 
universities. Forty thousand K through 12 students participated 
in activities at Fermilab last year. Eight thousand visitors 
took tours or dropped into the Lederman Science Center, and 
over 1,000 college and university students are involved in on-
site program and internships.
    So to put things in a little bit of context, the United 
States has been amongst the leaders in particle physics for the 
last several decades. Fermilab operated the highest energy 
collider in the world. The United States pioneered 
superconducting magnet technology and built the first large 
superconducting accelerator, the Tevatron, which was 4 miles in 
circumference. Over 1,000 graduate students received Ph.D.'s 
and over 1,000 scientific papers were published from that 
program. The discovery of the top quark, as you heard from the 
Chair, was the crowning achievement, the heaviest fundamental 
particle ever observed. Today, the Large Hadron Collider has 
the highest energy in the world.
    So what is next for the United States? P5 has endorsed a 
portfolio of projects. I will comment on three: the LHC, the 
ILC, and neutrinos, LBNF. Our goal is to have one optimal 
accelerator-based neutrino program in the world--okay--and not 
three suboptimal facilities, so strictly limited by fiscal and 
human resources and not by the ambitions of the scientists. We 
are trying to collect everybody together into one single 
program.
    P5 recommends we fully exploit the Large Hadron Collider. 
The program has tremendous discovery potential, and I think the 
anticipation in our community is really something when you ask 
people about what they expect to come out of the program in the 
next few years. It is going to be the highest energy again. 
They are stepping up the energy and, you know, everybody is 
quite excited about that.
    So the existing science, as you mentioned, attracts some of 
the brightest students into physics. U.S. technology 
contribution to the LHC in the future is critical. The high 
field magnet technology has now evolved to yet a new type of 
conductor, niobium 310, and the United States is the only place 
that makes that. That has been done with a collaboration by DOE 
Office of Science labs, Brookhaven, Lawrence Berkeley lab, and 
Fermilab.
    The P5 report is supportive of U.S. involvement in the 
International Linear Collider. The 20-mile-long accelerator has 
been designed by a global team over the last decade and Japan 
is now seriously considering hosting the machine. The United 
States and Fermilab is well suited to contribute technically to 
the machine. In fact, it is hard to imagine Japan being able to 
proceed without our partnership. It is truly a huge undertaking 
and certainly worthy of a global project.
    Our community has decided that neutrinos are where the 
action is. You have 100 billion neutrinos going through your 
thumbnail per second as you sit here in this room. The particle 
indeed is very mysterious and continues to surprise physicists 
after every major measurement. It has to be important.
    P5 envisioned a program of experiments over short distances 
and one over a long distance, all the way to the Sanford 
Underground Research Facility in Lead, South Dakota. The old 
Homestake mine where Ray Davis, my officemate at the University 
of Pennsylvania, did his work to earn the Nobel Prize for 
detecting neutrinos from the sun.
    For LBNF there is a near detector and a far detector, one 
at Fermilab and one in South Dakota. The detector would sit 
about a mile underground and be, at least in the present 
configuration, 40,000 tons of liquid argon, or liquid air if 
you like.
    The impact of fundamental physics is significant, too. 
Fermilab is making a concerted effort to commercialize its 
technology to help create jobs for Americans, build industries, 
and contribute to society. Today, we see small, portable, high-
powered accelerators as having the potential to have major 
impact on numerous industries such as microelectronics, 
transportation, and the national gas industry. I am happy to 
expand upon these in our discussions.
    Finally, let me say again that the P5 report lays out a 
bright future for the U.S. particle physics community in the 
global context. The report has made clear choices and Fermilab 
is beginning to implement these choices along with our 
colleagues at OHAP and the Department of Energy.
    [The prepared statement of Dr. Lockyer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. Thank you, Dr. Lockyer. And we don't 
know why those buzzers go off when they do, but we appreciate 
your unflappability with regard to that.
    I now recognize Dr. Roe to present her testimony.

                 TESTIMONY OF DR. NATALIE ROE,

                  DIRECTOR, PHYSICS DIVISION,

              LAWRENCE BERKLEY NATIONAL LABORATORY

    Dr. Roe. Thank you, Chairman Lummis, Ranking Member 
Swalwell, distinguished Members of the Subcommittee, and thank 
you for inviting me to participate in this important hearing.
    I completed my graduate studies in particle physics 25 
years ago at SLAC. My thesis experiment had roughly a dozen 
scientists, cost less than $1 million, and it was built, 
commissioned, took data, and published its main results all 
during my time as a grad student.
    Today, the Large Hadron Collider is a multibillion-dollar 
machine. The design of the LHC began over 20 years ago and each 
of the four experiments has several thousand physicists. With 
suitable upgrades, the LHC will likely continue for another 20 
years. This increase in scale, in size, in dollars, in time, 
and in human capital is necessary to extend our reach to higher 
energies and higher intensities.
    Although I have witnessed these dramatic changes in our 
field, small- and intermediate-scale projects, such as the one 
I participated in at Stanford, still have tremendous potential 
to make groundbreaking discoveries. This was recognized in the 
P5 report, which stressed the value of a balanced portfolio, 
and my goal today is to explain this recommendation of P5 and 
provide a few key examples of small- and medium-sized projects 
with big potential.
    As evidenced by my personal experience, these smaller 
projects provide excellent training for students and postdocs. 
Smaller experiments can go after ``blue-sky'' ideas. They can 
be nimble and take risks with the potential to shake up the 
field. A prime example of what can come out of a small project 
is a project started in the early 1990s called the Supernova 
Cosmology Project, led by a young physicist named Saul 
Perlmutter. Saul's plan was to use supernovae, or exploding 
stars, to measure the rate at which gravity was causing the 
expansion of the universe to slow down. In what is now a famous 
result, Saul and his team had measured enough supernovae by 
1998 to conclude that the expansion of the universe was in fact 
accelerating. The expansion was going faster and faster. In 
other words, some force counteracting gravity is at work in the 
universe. We call it dark energy because we just don't know 
what it is.
    The result was completely unexpected and it was a dramatic 
event for the physics community. This work, this small project, 
ultimately led to a Nobel Prize. Saul's discovery has attracted 
the attention of scientists all over the world and inspired a 
new generation of students to study physics. Out of this small 
experiment a whole new field of research has been created and 
our concept of the universe has been fundamentally changed 
forever. Obviously, the return on the Federal Government's 
investment in this case was huge.
    And dark energy remains one of the biggest unanswered 
questions in fundamental physics today. Much more precise data 
is needed to figure out which of the many proposed theories is 
correct. The Dark Energy Spectroscopic Instrument, or DESI, is 
one of the small-scale projects recommended by P5 that could 
tackle this problem. DESI reuses an existing telescope at Kitt 
Peak, Arizona, and installs a new instrument and dedicates it 
to a wide-area survey of the universe. DESI will bring a new 
level of precision to the study of dark energy and could be 
built for about $40 million over four years. DESI would enable 
the United States to remain a leader in dark energy research 
into the next decade.
    P5 also recommended that the United States should remain a 
leader in the search for dark matter. Dark matter outweighs 
normal matter by about 6 to 1, and without it, the stars in our 
galaxy would fly off into space. A deep underground site to 
carry out this type of dark matter search already exists in the 
United States in the State of South Dakota. It is called the 
Sanford Underground Research Facility, or SURF. SURF hosts the 
world's current most sensitive dark matter experiment and it 
could provide a home for one of the next-generation dark matter 
experiments that P5 recommended. SURF is also where the 
neutrino detectors for the long baseline neutrino facility that 
Nigel discussed will be located.
    Particle physics has come very far in the past century, 
finally discovering the long-sought Higgs boson, only to 
realize that we do not understand what makes up 95 percent of 
the universe, the mysteries that we call dark matter and dark 
energy. This is both humbling and exciting. P5 has recommended 
a carefully selected set of interlocking experiments, including 
a number of small- to medium-sized projects in this cosmic 
frontier. This program is optimized to achieve the most cost-
effective approach in our quest to further understand the 
nature of matter, energy, space, and time.
    Thank you for your attention. I very happy to answer any 
questions you may have.
    [The prepared statement of Dr. Roe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Lummis. I thank the witnesses for being 
available for questioning today and for your really exciting 
testimony.
    I remind our Members that Committee rules limit questioning 
to five minutes. And so at this point I will open the round of 
questioning. So I recognize myself for five minutes.
    Now, in your report, the P5 recommends that the budget 
fraction for construction increased to 20 to 25 percent. And I 
understand right now it is around 16, so my first question is 
for you, Dr. Ritz. How did the P5 come to this determination 
and what is the significance of the likely outcome if DOE 
adopts this recommendation?
    Dr. Ritz. Yes. Thanks for the question. This was one of the 
tough issues. In a constrained budget scenario where there is a 
top-line number, if you increase the fraction devoted to 
projects, that means it comes from some other place. And in 
this case the other parts of the budget are in research, in the 
research program and operations. And in the planning there has 
been recently a reduction in the research program, and we 
endorse that and said that at least in the leanest budget 
scenario, that was going to be necessary, that the program that 
you get if you don't devote the necessary resources for 
building things was just not going to get us where we needed. 
And that is why we called the report ``Building for 
Discovery.'' So this was a very tough choice, something that 
was discussed quite a bit. There are recommendations in the 
report about how to manage that--those expenditures 
judiciously, particularly for the research program.
    Chairwoman Lummis. So this recommendation has implications 
for the colleagues at the table, so I want to ask Dr. Lockyer 
and Dr. Roe this question. How will the P5's recommendation to 
increase the budget for construction affect operations and 
research at your respective labs?
    Dr. Lockyer. Good question. So, first of all, I will say 
that we are in agreement with the idea that you have to really 
build for the future. So, as I tried to mention the context of 
where we are now is that we just come off being the leaders in 
the world in particle physics, having the highest energy 
machine, and now the question is what is for the future? And so 
you have to build something, and in order to do that, that 
comes through the project funding line.
    So now the issue is how do you shrink the research program 
and how do you shrink the operations? And the answer is 
carefully. I think we have to do that. We know we have to do 
that. But in terms of shifting workforce and so on, we will be 
moving people that would normally work on operations and move 
them into these research projects, which actually for a lot of 
engineers and scientists is a nice shift.
    Chairwoman Lummis. Dr. Roe?
    Dr. Roe. I would just mention that we have already seen a 
contraction of our research program. I believe that all of the 
national labs that have HEP program have already had reductions 
in force, and it has been a painful process but one that we 
recognize as necessary in order to increase our investment in 
exciting projects that will inspire young scientists and keep 
the United States at the forefront of particle physics. So it 
is a sacrifice that we have already been making and that we 
realized may have to continue.
    Chairwoman Lummis. Dr. Drell, I do have a question for you 
as well. Given your experience in this field, how do you view 
this specific recommendation by the P5 and is it worth the 
tradeoff?
    Dr. Drell. I also agree with the others that it absolutely 
is worth the tradeoff, that it is painful for today but it is 
what makes the future possible, and therefore, I completely 
support it.
    Chairwoman Lummis. Have any of you had experience with 
leveraging the construction component by having universities or 
States in the event of its expansion in the United States 
contribute to this because of the opportunities it provides for 
economic development, for the recruitment of world-class 
intellectual prowess to their States, and all that means for a 
community?
    Dr. Ritz. Yes, very much. That is a great question. As a 
university member, let me just say that universities and 
laboratories work in partnership wonderfully together. Having 
students, postdocs, resident universities which still have some 
infrastructure for producing detectors at experiments is a 
wonderful way; it is also an extremely efficient way of 
building these experiments. So, yes, it is an extremely 
important part of the field. It has been a challenge to 
maintain the infrastructure at universities with the overall 
shrinking capability, but it is core to our field. I am sure 
Nigel and Natalie would agree.
    Chairwoman Lummis. I thank you. My time is expired. And now 
I yield to the Ranking Member, Mr. Swalwell.
    Mr. Swalwell. Thank you, Chair. And thank you to the 
witnesses and, Dr. Lockyer, thank you for telling me about 
Fermilab. You have a faithful advocate in Congressman Hultgren, 
and I am now assured that you were put on this panel for more 
reasons than just separating the Berkeley and Stanford 
witnesses, who at home would be at odds with each other.
    Dr. Roe, I understand that you and your colleagues had to 
make a number of tough decisions under a difficult set of 
budget trajectories, and I commend you for rising to this 
challenge so that Members of Congress, without particle physics 
degrees, don't have to make these decisions without your 
guidance.
    And I am, however, concerned about the consequences of the 
lowest budget scenario that you were required to consider, and 
with that in mind, I wanted to talk a little bit about DESI and 
why that is so important to improving our understanding of dark 
energy. And if you could also talk a little bit about what the 
sense of impacts on the U.S. physics community would be if this 
experiment was not allowed to move forward.
    Dr. Roe. Well, thank you very much for that question, 
Representative Swalwell.
    DESI is really a unique experiment in that it can make 
these very precise measurements of dark energy extending back 
billions of years in cosmic time, but at a cost that is very 
modest considering that its reach can rival expensive space 
mission capabilities. And the key is to recycle this existing 
telescope that the NSF has at Kitt Peak in Arizona that they 
were planning to retire. So we are making use of an existing 
facility, outfitting it with a modern robotics fiber fit 
spectrograph that we can measure 5,000 galaxies at a time with. 
And there is a lot of excitement around this project and it 
would certainly send a very discouraging message to the many 
young scientists who have already voted with their feet to join 
this collaboration, they are excited about the science, eager 
to take on major roles and responsibilities.
    And also if we can't proceed with DESI, it would send a 
negative message to our many collaborators from 10 countries 
who have indicated that they wish to invest here in this 
experiment and they may decide to try to do this experiment 
themselves in Europe or Asia if--rather than wait for us to 
commit if we can't do it.
    Mr. Swalwell. And, Dr. Roe, speaking of Europe or Asia, if 
DESI is funded and moves forward as a project, what will it be 
able to accomplish that cannot be accomplished or will not be 
accomplished by LSST or by the European dark energy missions 
and experiments that are expected?
    Dr. Roe. Well, DESI is very complementary to these other 
missions, as was called out in a community report on dark 
energy that the Department of Energy asked for two years ago. 
Basically, whereas DESI uses spectroscopic techniques, 
measuring the spectrum of galaxies, LSST uses imaging 
techniques, taking pictures of galaxies. And by doing these 
different approaches, they can constrain dark energy with 
different and complementary methods. Because it is such an 
unexpected phenomenon, we feel that we need confirmation from 
multiple techniques to really understand what is going on. So 
they really fit together in a planned program.
    Mr. Swalwell. Great. Thank you, Dr. Roe.
    And, Dr. Drell, as you mentioned in your testimony, this is 
not your first P5 rodeo so to speak. You were pivotal in the 
creation of the first P5. And I was wondering if, thinking 
broader, you could--can you envision this process that the P5 
undertook--can it and should it be applied to other areas of 
research that require long-term prioritization of projects 
under challenging budget scenarios, and if so, any examples?
    Dr. Roe. So actually other fields use processes that they 
are not called P5 but they have a similar outcome and are tuned 
to the specific circumstances of those fields for----
    Mr. Swalwell. How about fields that aren't using it that 
you think would benefit if they took this process?
    Dr. Roe. I think most of the fields that I can think of, 
astronomy and astrophysics with its Decadal Survey, x-ray 
science with the BSAC subpanels, nuclear physics, they have a 
very good process. The fields that I am aware of that really 
need to do this have their ways of doing it. It is I think in 
some ways hardest in high energy physics because of the huge 
opportunity costs of our projects. They are so long that you 
make a decision now and it really constrains the program many, 
many years in the future. And that--it was that additional 
element of opportunity cost we felt wasn't being taken into 
account in 2002.
    But I think actually we, in the P5 process, learned from 
how other fields do it, and in the way of science, they will 
learn from how this was done as they go forward in their 
planning.
    Mr. Swalwell. Great. Thank you and I yield back the balance 
of my time.
    Chairwoman Lummis. I thank the gentleman.
    And when I was in college, I studied the biological 
sciences and found myself with a considerable amount of 
physical sciences deficit in my own intellectual capabilities. 
So I marvel at your capabilities intellectually and the 
excitement that you bring.
    But we do have one Member of this Committee that is at your 
level and I recognize him now, the gentleman from Kentucky, Mr. 
Massie.
    Mr. Massie. I am definitely not at your level, but let's 
manage expectations here.
    So please bring it down to our level a little bit here. Can 
you explain, any of you, the significance of the Higgs boson 
and why Congressmen and Congresswomen should be interested in 
that discovery and also the location of that discovery? Dr. 
Ritz.
    Dr. Ritz. Sure. I would be happy to do that.
    It is really an amazing time in physics, and let me try--
rather than try to describe electroweak symmetry breaking and 
all the technical terms people try to explain, let me step back 
a minute and just try to give you a sense of why we are so 
excited about it.
    And it really reminds me of a story when I was a graduate 
student and I earned my keep by being a TA. We had intro 
physics labs. I actually really enjoyed teaching the biological 
science students. Actually at Santa Cruz it is great. And there 
was one of these labs that you probably remember, it wasn't all 
that exciting, involved a plunger and a piston and a spring 
kind of like a pinball thing, you know. And I said, well, you 
know what, let's--why don't you take that and aim the thing at 
some angle and calculate where the thing is going to land, put 
a piece of paper there. And, you know, one of the students did 
it and he, you know, thank goodness, it hit spot-on and he was 
just so excited about that. I will never forget this, that he 
just wrote in his laboratory book in all caps, Newton's laws 
allowed me to predict where this was going to land; physics 
really works. He was just so excited.
    So fast-forward from Newton's time to the late 1800s when 
people studying electricity and magnetism realized they are 
actually two different aspects of the same thing, okay. 
Electricity and magnetism are actually unified forces, and that 
became the basis of all the technology that we enjoy today.
    Now, come to our era. There is another force. There aren't 
that many forces; that is what is amazing. There is another 
force that can be unified yet with electricity and magnetism 
that is called the weak force. So here is the really 
interesting thing and that is related to that student back in 
Wisconsin. You take all of these phenomena that we see in our 
experiments and you can write down the theory that is really 
abstract and it involves all these terms that take a long time 
to explain. It is really beautiful stuff. It is fantastic. You 
look at that and you say this all works if this other 
phenomenon that we never thought to look at, that we never in a 
million years would think to do, and it took us 30 years or 40 
years of experiment to find, we built the machines and we did 
it and it was there, okay. Science doesn't really get any 
better than that. We understand it at a profound level.
    Now, what the significance of the Higgs is going to be it 
is just too soon to tell. It is a fantastic new discovery. It 
is a new--entirely new kind of particle and, you know, as you 
can tell, I think we are extremely excited about it.
    Now, the--you asked about where. So it was discovered at 
the Large Hadron Collider facility at CERN. The United States, 
I believe, should be very proud of our role in that discovery. 
We had leadership in the two experiments that discovered it. It 
was our hardware that helped to make it possible. And for the 
next step these high luminosity upgrades, the upgrade to the 
machine, this is absolutely the best game in town. It won't 
happen, it can't happen without our know-how, as Nigel said. 
And it truly is a world discovery.
    Mr. Massie. So for everybody here, CERN is in Switzerland 
or----
    Dr. Ritz. Yes. Actually, the particles cross the border 
between France and Switzerland.
    Mr. Massie. And probably----
    Dr. Ritz. It is an open border.
    Mr. Massie. --some are escaping into the universe, too, 
right?
    So let me just play devil's advocate here----
    Dr. Ritz. Sure.
    Mr. Massie. --and I assure you this is being devil's 
advocate. Why can't the United States just kind of sit back and 
wait for the rest of the discoveries to happen in Switzerland 
and let our international partners--just ride on their 
coattails?
    Dr. Ritz. Sorry? Nigel----
    Mr. Massie. Yes.
    Dr. Ritz. --would you like to answer that? Sure.
    Dr. Lockyer. Sure. I think the main issue here is the 
technology associated with that for me, from my standpoint. So 
as I mentioned before, CERN relies on the United States for the 
next phase of the machine to be building the high field 
magnets, which give it the high luminosity, which allows you to 
do the new physics. We keep that technology. We own that 
technology and so that is the technology that I think is going 
to be important when we try and apply it to the commercial side 
of things. So you don't lose any of that.
    At the same time, your scientists are working at the 
absolute forefront of the field and they come back excited 
about what they have learned; the students come back excited 
about what they have learned. They are not all going to stay in 
the field. In fact, roughly half of them go into business and 
in other areas of--you know, that they pursue in their careers.
    Mr. Massie. Occasionally engineers get lost in Congress, 
too.
    Dr. Lockyer. They do. But I think that is--you know, so 
there are benefits both on the people's side and on the 
technology side, and it works both ways actually.
    Mr. Massie. Thank you very much. My time is expired.
    Chairwoman Lummis. When I first met my colleague, Mr. 
Massie, who is a graduate of MIT and holds dozens of patents, I 
asked him, tell me something you hold a patent in. And he said, 
well, I hold a patent in how one can feel non-matter. And I 
said to him how did you know that would be of any significance? 
And he said I didn't and I still don't. And someday somebody 
will make that next step, and in some ways that is what you are 
doing. That is what is so exciting and pioneering about it.
    Mr. Massie. Well, one thing is for certain. I used to work 
in virtual reality and I am back in virtual reality.
    Chairwoman Lummis. The Chair completely understands that 
statement.
    I now recognize the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Madam Chair. Thank you for holding 
this hearing.
    I try to understand particle physics but I am only an 
engineer, so I have a hard time reaching those levels, but it 
is very good to see you, Dr. Drell. I understand you are the 
new chair of--Dean of Engineering at Stanford, where I got an 
engineering degree out there, so I was very happy to hear that. 
And good to see you, Dr. Lockyer. I think Representative 
Hultgren will be probably asking questions next on this, and I 
know it is a great facility we have there in Illinois out in 
his district.
    First of all, let's talk a little bit about more generally. 
I was very happy to get connected with David Kaplan and Mark 
Levinson when they were first really starting on ``Particle 
Fever,'' the movie. And I highly recommend the movie. I gave 
the introduction here in Washington for the premiere of the 
movie. The weekend it premiered in Chicago, I went to the movie 
and David was there and answered questions afterwards, and I 
never expected to see the kind of excitement that came out of 
that movie for the audiences. But I never expected that anyone 
could put together a movie to make particle physics really 
interesting and somewhat understandable. It helped me better 
understand--after spending many, many hours over the years 
talking about particle physics, the movie did a great job of 
helping me to understand, okay, what we are talking about. Help 
an engineer try to understand what we are talking about with 
particle physics.
    But it is great to see and I--you know, I said the way the 
movie ended with the discovery of the Higgs boson but still 
leaving sort of the cliffhanger of, okay, what does this mean 
now? I said, well, it is just a perfect setup for the sequel, 
but we are all waiting to see what--where we go from here.
    But I wanted to ask Dr. Lockyer about the Illinois 
Accelerator Research Center. I know the Department of Energy 
and the State of Illinois are in the partnership to build that, 
and once completed, the center is going to conduct research and 
help establish partnerships between the scientific and business 
communities to solve problems related to energy, the 
environment, medicine, and national security.
    I think that this is something where we see--in our roles 
here, it is hard sometimes to make the case for basic research 
and funding of basic research and people want to see results--
what does this mean to us, as Dr. Massie was getting at there. 
A lot of times you don't know, you don't know for a long time, 
but we see it somewhere. But when we are talking about this 
center, can you say a few words about what you hope you will be 
able to do in terms of economic development and job growth?
    Dr. Lockyer. Thanks for the question.
    The Illinois Accelerator Research Center is the--sort of 
the focus of Fermilab's attempt to commercialize the technology 
associated with article physics and in particular accelerators. 
So maybe I will give you an Illinois example and you can apply 
it to the rest of the country. So, for example, high power 
electron accelerators can be used to polymerize hydrocarbons, 
which means, you know, the bonds can be rearranged in a way 
that changes the texture and the behavior of the material. One 
example is radial tires are treated with electron beams to make 
them harder, so obviously that is a good thing.
    So what we are looking at now, for example, is looking at 
asphalt. So asphalt is a combination of gravel and bitumen, and 
we are looking at changing the chemical structure, the bitumen, 
so that the asphalt is harder and lasts longer. You know, $80 
billion of money goes into paving roads in the United States, 
so if you can make a road last an extra year, it is a big deal. 
So we envision being able to treat the asphalt as you lay the 
pavement down with portable accelerators. You have seen us in 
the highways where they lay the asphalt and you try and stay 
away from it because it is a mess in terms of traffic, but we 
can imagine mounting small accelerators on the back of that 
vehicle and hardening the road as you lay it down. And so we 
have started that kind of research. That is just one of the 
examples were looking at but there is a number of other ones I 
could give you afterwards if you would like.
    Mr. Lipinski. I appreciate that. And as an engineer and a 
Member of the Transportation Committee, I can appreciate it and 
understand. So thank you. I will yield back.
    Chairwoman Lummis. As you can see, our Members from 
Illinois are rightly proud of what is occurring at Fermi and I 
now turn to one of them, the gentleman from Illinois.
    Mr. Hultgren. Thank you.
    Madam Chair, first of all, I ask unanimous consent to enter 
into the record a letter from the American Physical Society 
supporting the P5 process and its plan for the future of 
particle physics in the United States.
    Chairwoman Lummis. So ordered.
    [The information appears in Appendix I]
    Mr. Hultgren. Well, thank you, Chairwoman Lummis, so much. 
Thank you to all of our witnesses for being here today. I know 
sometimes my colleagues do get tired of me talking incessantly 
about Fermilab, so it is great to have some people here who 
actually know what is going on there before the Subcommittee 
and the great things that you are doing in this very important 
field.
    Since the shutdown of the Tevatron, I know how hard the 
community has been working to find the next frontier we will be 
embarking upon. We have heard the Secretary talk about the 
community getting on board for a plan, and that is why I am so 
grateful for the work of P5 that you did to put forward a 
responsible plan taking into account the budget constraints for 
this vision, which ensures projects that could be funded and 
realistically executed. I would like to thank Dr. Ritz and 
everyone involved for their hard work that they put into this. 
From everything I hear, the community has accepted this plan 
and is appreciative for it, as I am as well.
    Dr. Lockyer, at this time there are only six universities 
offering graduate programs to train accelerator scientists and 
technologists here in the United States. This is often a field 
that is self-selected and we need to maintain a leadership role 
just to maintain the capabilities and expertise we already 
have. I wondered if you could explain the PIP-II upgrades, what 
they will make available to Fermilab and to the community as a 
whole. Besides just a long-based neutrino experiment, what 
other experiments will this technology and R&D allow the 
community to do?
    Dr. Lockyer. Thanks for that. The PIP-II project, Proton 
Improvement Plan at Fermilab, is the one I am personally 
excited about because it really goes to the heart of what our 
field is trying to emphasize, which is accelerator research. 
The technology associated with it we were referred to as 
superconducting radio frequency technology. We are pushing the 
envelope in what you can do with that. It has applications in 
other fields. It has applications in commercialization. And 
because it is new and because it is a challenging project to 
build, it will allow us to stay at the cutting-edge of 
accelerator research over the next decade and provide the most 
powerful neutrino beams in the world. So again, that will be 
our competitive advantage on the science side.
    It is also a great place for training students, and I 
agree, there is a shortage of accelerator physicists. The 
schools that do offer accelerator programs are the top schools 
in the country. We are working with Northern Illinois 
University to create a program there. The new President Doug 
Baker is very committed to doing that. And so I see that there 
is numerous opportunities we have to impact our field on that.
    Mr. Hultgren. And I appreciate that and I think that is 
such an important story again for all of us to be reminded of 
is the great cooperation that is going on there but also 
preparation that needs to happen.
    Dr. Lockyer and Dr. Ritz, since the report has been 
published, there have been some questions from the community as 
to whether LBNE will need to be completely reworked to create 
the international facility the report is pushing for. I 
wondered is this the case, and if not, how will LBNE be rolled 
into LBNF? Should our international partners have faith that 
our previous work is relevant and continued project engineering 
and design work is worthwhile?
    Dr. Ritz. Well, let me start and then hand it over to 
Nigel.
    The answer is yes. I think they should have faith. I think 
the report is actually a resounding endorsement of the science. 
It is in a sense, to quote President Reagan, throw deep, that 
this is--the community spoke very clearly at the Snowmass 
meeting and also our international colleagues and their 
expression of interest have said they really want this to be a 
capable experiment. So this is something that is going to take 
the world neutrino community to come together to have--to make 
happen, and we are in an excellent position in the United 
States to host this facility both with Fermilab and the San 
Fernando Valley research facility.
    And let me hand this over to Nigel, who is also of course 
working on the implementation.
    Dr. Lockyer. Yes. I think this is one of the more 
challenging aspects of the P5 report for Fermilab and for the 
community. I think it is necessary to--in order to have the 
absolute optimal experiment put together that you have all your 
friends there, you invite their ideas, and so we are going 
through a process now where we are asking whether the 
international community can see themselves being engaged in 
what we have started.
    We think we have done a great job so far and made 
tremendous progress, and I see that this--the P5 report just 
gives us more momentum because they see us having success, not 
only success in--technical success but also in terms of getting 
our community behind us. So I am very confident that we are 
going to see Europe get on board. Already CERN has said they 
want to be part of this. The U.K. and Italy have said they want 
to be part of this. Brazil has said they want to be part of 
this. So I see this is just--it is coming together now because 
I think the P5 report has just made us look more serious about 
what we are doing.
    Mr. Hultgren. Well, again, my time is expired but I do want 
to just thank you all so much. It has been a challenging couple 
of years and this is an exciting time. I feel it we are right 
there and you all have been such a key part of that. So thank 
you. We want to help. We want to get this message out to our 
colleagues of how important this is right now.
    So, Chair, thank you for holding this hearing and I yield 
back.
    Chairwoman Lummis. I thank the gentleman.
    And before I recognize the gentleman from Texas, I want to 
alert our panel as to the plan here. We would love to have a 
second round of questioning if you are available. I will be 
turning the Chair over to the gentleman from Illinois, Mr. 
Hultgren, and Mr. Lipinski of Illinois will assume the Ranking 
Member Chair. Mr. Swalwell and I are going to step out and 
discuss the markup of the authorizing legislation that includes 
funding for high energy physics. So please excuse us as we have 
a sidebar in the back room.
    And I now thank you again for being here.
    I do recognize the gentleman from Texas, Mr. Veasey, and 
turn the Chair over to Mr. Hultgren.
    Mr. Veasey. Thank you, Madam Chair.
    I did want to--I have a question about international 
research projects and wanted to direct my question to Dr. 
Lockyer.
    I know that you are familiar with the ITER, which is being 
built in France and will be the first large-scale magnetic 
fusion facility in the world to produce net power. As has been 
mentioned multiple times, the LHC is under the Franco-Swiss 
border near Geneva, and Japan is bidding to host the 
International Linear Collider. Some may consider the fact that 
all of these next-generation major research facilities are 
being built in places outside the United States as evidence 
that we are losing our global leadership in research and 
innovation and was wondering what you think about those 
concerns that have been expressed.
    Dr. Lockyer. Thanks for the easy question. The--I think the 
situation is changing. The global situation is changing with 
very large projects, and that is why I think it is so critical 
that the United States host its own large project and we are 
seeing the P5 report as putting forward the idea that we would 
host a neutrino project.
    These are very different from, let's say, the ITER project, 
which is perhaps an example you want to stay away from in terms 
of challenges. It has had management challenges; it has had 
cost challenges. I usually draw your attention to our 
collaboration with CERN, which has been so successful. The 
project itself was capped. We delivered--the United States 
delivered what it needed to, everybody else did. It was done on 
time, on schedule. It had tremendous success, as you know, with 
the Higgs boson.
    So I believe our field actually knows how to do 
international projects. We have demonstrated that. And so I 
don't have the same concerns that maybe people who want to put 
ITER and hosting a science project in the same sentence. They 
are quite different.
    Mr. Veasey. Well, how will we benefit? Like how will the 
United States benefit? I know Dr. Roe wants to answer that and 
she can answer that and jump right into this, too. How does the 
United States benefit from these international research 
projects even if they are being conducted overseas? I think any 
of the panelists--Dr. Roe, if you want to answer--go back to 
that and then answer that as well, too.
    Dr. Roe. Thank you. Thank you for the question. I think we 
do benefit by participating in international projects in many 
ways because our scientists, our engineers, our students 
contribute. We develop new ideas, we develop technologies, and 
we benefit our local economy by building things that are then 
installed overseas. But we don't want all of the leading 
particle physics projects to be overseas. If we do, we are 
likely to witness a brain drain where many of the most talented 
young scientists that are trained in the United States will 
pursue the better opportunities abroad. And we have long 
benefited from the influx of the best and the brightest coming 
here to pursue an education and the research opportunities that 
we offer, and a reversal of this trend I think would be very, 
very bad for the United States.
    Mr. Veasey. Thank you.
    Dr. Lockyer. I completely agree with her answer. I think 
the issue is an exchange, and I believe that--as I said, that 
we should be hosting the project but we also benefit by going 
abroad. And as I mentioned earlier, our technology most of the 
time is developed in this country, stays in the country, is 
used for our own purposes, and yet we benefit from working with 
the best and the brightest around the world in these projects.
    Mr. Veasey. Thank you. I yield back my time.
    Mr. Hultgren. [Presiding] Thank you.
    We will now move to a second round of questions and I will 
yield to myself for five minutes.
    First question in the second round here addressed to Dr. 
Lockyer and Dr. Drell. I wonder, can you both explain the 
collaboration between high energy physics and other programs in 
DOE, especially basic energy sciences and specifically drawing 
attention to LCLS-II upgrades. How did this process work and 
what continued R&D work is necessary in HEP to complete these 
kinds of upgrades and build other new light sources? Also, 
while HEP is the steward of accelerator R&D, will it always be 
work in HEP that drives this technology?
    Dr. Drell. Let me start and then maybe Nigel will complete.
    From the SLAC perspective, we have this magnificent 
opportunity to build LCLS-II building on fabulous science with 
LCLS. As you know, LCLS-II will involve a superconducting 
electron accelerator. We have no expertise in building 
superconducting electron accelerators at SLAC, but it is the 
way the system works in the DOE that the laboratories have 
competencies that are very often unique to those laboratories 
and we help and support each other. This has gone on for some 
time. And for the LCLS-II we reached out to Fermilab and to 
Jefferson lab and to Cornell, who are the world-leading experts 
in this technology, and they will then help us and build that 
for us.
    I would like to say that this is a remarkably efficient 
process. It means that rather than having duplicative 
competencies at different labs, we instead use our unique 
expertise to support each other and it is going extremely well 
in the case of LCLS-II. SLAC could not on its own build that 
facility without the help of our partners, and we appreciate 
that they prioritize it extremely highly and it benefits 
science broadly in the Nation, and that is really our goal.
    Dr. Lockyer. You know, I would second that and I would give 
you another example. So the P5 report talked about the cosmic 
microwave background as a new area that high energy physics 
would get involved in, and that also is a collaboration of 
various laboratories bringing different expertise to the table. 
So again, SLAC, Berkeley, Argonne, Fermilab work together to 
develop a chip, to mount chips, and each lab plays a different 
role working with the broader university community at the same 
time.
    So I think we all know what we do well and what we don't 
do, and I think the idea that the labs work together makes 
tremendous sense to me and I am seeing that more and more all 
the time, and I know the Secretary is very much a big fan of 
doing that. And so we are doing it and it is quite successful.
    Mr. Hultgren. Good. I do think it is an important message 
for Members of Congress to understand and to see again this 
ecosystem of how it works. We understand oftentimes our own 
labs but don't understand how the working together, how 
important that is and the ripple benefits across education but 
also into the private sector as well, so I think it is great. 
Thank you.
    Dr. Ritz and also Dr. Lockyer, going back to your work with 
GLAST, you seem to be in a unique position to discuss how work 
in high energy physics is also affecting what we observe in 
outer space, whether it be dark matter, dark energy, or 
inflation. Can you talk about the expertise HEP will bring to 
the table for the next generation of space observatories and 
experiments such as LSST, which was also a top priority of the 
Decadal Survey?
    Also, what does neutrino science have to contribute to the 
understanding of the big bang and supernovas?
    Dr. Ritz. Oh, so much there. Great, thank you. Yes.
    So of course science doesn't know about all these different 
stovepipes that we invent just so that we can get our work 
done, and there are areas that fall--there are really important 
aspects of science and great opportunities that fall between 
fields, and it is extremely important that they get done. Our 
report addresses that, as did the Decadal Survey that you 
mentioned, that by combining forces and doing the funding in a 
way that--in a multidisciplinary, multiagency sort of way that 
matches the science output or the science yield that benefit 
each of the different disciplines, we think this is a great way 
to go and it makes a big difference.
    Particle physicists are really great at building large-
scale, highly integrated systems, large numbers of channels, 
very precise measurements, very careful attention to errors, 
great detail to pull out the physics, okay, and combining that 
with the expertise of our astronomer friends and colleagues 
that if you are going to use the universe as a laboratory and 
make observations, you better talk very carefully and directly 
and collaborate with people who understand astronomy and 
astrophysics, that by working together you can pull out new 
information. So that is extremely important and extremely 
interesting.
    Neutrinos are a great example of a particle that just 
doesn't know which science discipline they belong to. There is 
particle physics, there is nuclear physics. Each play really 
important roles and we work really well together on this 
actually.
    You would be surprised but, as Nigel said, neutrinos are 
all over the place. They actually had an influence on the 
growth of the structure that we see in the universe today. And 
by making these observations with telescopes and looking at the 
growth of structure--in other words, how did all the matter 
collect that we see--you can actually get information on the 
mass of neutrinos. And this--it looks to us to be one of the 
best ways in the near term of learning about neutrino 
properties, so what a wonderful connection that these things 
have and it is really going to accelerate progress we think.
    Mr. Hultgren. Dr. Lockyer, anything quickly?
    Dr. Lockyer. Yes. Quickly I will just say supernova is when 
a star dies and collapses and sometimes you create what is 
called a neutron star, and during that process you emit lots of 
anti-neutrinos. LBNF will be waiting there ready to observe 
those and we would see thousands of them as opposed to what has 
been observed so far from a famous event, 1987, we saw 10. And 
so the difference in scale is now humongous.
    Mr. Hultgren. Great. My time is expired. I recognize my 
colleague, Congressman Lipinski, for five minutes.
    Mr. Lipinski. Thank you. And unfortunately, I don't have 
the time so I won't be taking five minutes right now.
    I just want to make sure that I thank all of you for the 
work that you have done, the work on P5, which I think is 
extraordinary, really helps to light the way of where we need 
to go. And I assure you that, yes, probably everyone on this 
committee who is not from northeastern Illinois gets sick and 
tired of hearing Randy talk about the--about Fermi, so he 
certainly does probably every hearing that we have, does a good 
job with that, and about high energy physics in general. But 
thank you for your work, and I was hoping that the Chair would 
still be here and I was going to recommend to her that we do a 
Congressional Committee trip out to Fermi, out to the Bay Area 
because there is no two better places to go than to the Chicago 
area and the Bay Area. I have been to Fermi, I have been to 
SLAC, I have been to Lawrence Berkeley. I would be very happy 
to go back out there and happy to take a side trip to Santa 
Cruz also. I have been to Santa Cruz, not onto the campus, but 
have been to the Santa Cruz Boardwalk a few times.
    But thank you for your testimony and thank you for all the 
work that you are doing.
    Mr. Hultgren. I think that is a great suggestion and I will 
echo that as well to the Chair.
    I do want to thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Committee may have additional questions for you, and we 
will ask you to respond to those in writing. The record will 
remain open for two weeks for additional comments and written 
questions from Members.
    The witnesses are excused and this hearing is adjourned. 
And thank you all.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Additional Material for the Record




Submitted statement of Eddie Bernice Johnson, Ranking Member, Committee 
                    on Science, Space and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Article submitted by Representative Randy Hultgren
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
